July 17, 2008

DAVID M. PATTERSON
MANAGER, OPERATIONS SUPPORT, SOUTHEAST AREA

SUBJECT:          Audit Report – Renewal Process for Highway Transportation
                  Contracts in the Southeast Area
                  (Report Number CA-AR-08-008)

This report presents the results of our audit of the U.S. Postal Service’s
renewal process for highway transportation contracts (Project Number
08YG001CA000). Our objective was to determine whether Postal Service
officials ensured the best service and value in renewing highway
transportation contracts. Specifically, we determined whether Postal
Service officials assessed contract requirements to determine their
appropriateness; considered past and present supplier performance; and
conducted market comparisons to ensure that competition and favorable
rates were achieved. Click here to go to Appendix A for additional
information about this audit.

Conclusion

We could not determine whether Postal Service officials were obtaining the
best service and value in renewing highway transportation contracts.
Specifically, officials did not consistently assess whether contract
requirements were appropriate. Additionally, officials did not consistently
consider contractor performance, and did not adequately document
performance consideration in contract files. However, officials did conduct
market comparisons to ensure competition and favorable rates were
achieved.

We calculated the value of disbursements at risk for this audit to be
$935,000 (5 percent of $18.7 million1). These disbursements were at risk
because administrative officials (AO) did not consistently assess contract
requirements and performance. Based on previous U.S. Postal Service
Office of Inspector General (OIG) audits, 5 percent of highway



1
 Disbursements at risk of $18.7 million is the sum of the point estimate of the value of the
noncompliant contracts for the sample universe ($15.6 million) and the value of the two additional
contracts not included in the sample universe ($3.1 million).
Renewal Process for Highway Transportation Contracts                            CA-AR-08-008
 in the Southeast Area


transportation routes could have been eliminated or consolidated if AO had
adequately assessed requirements.

Assessment of Requirements

Postal Service officials did not consistently assess whether contract
requirements were appropriate. For 49 (68 percent) of the 72 contracts
reviewed, AOs2 did not perform the required surveys3 and did not maintain
documentation to show that they had assessed requirements. In addition,
only one of the 23 surveys performed was documented in the contracting
officer’s (CO) file.

PO-501, Highway Contract Route (HCR) Administration, dated June 1981,
requires that surveys be performed on all trips of each HCR in the fall of the
year before the HCR expires. COs are required to remind AOs each year
of the routes to be surveyed. These surveys are used to assist the COs in
determining if an HCR should be renewed.

PO-530-88-03, Conducting Highway Contract Route Surveys, dated
December 1988,4 states that the AO must develop and submit to the CO a
route survey plan, and the CO must approve the plan before the survey is
conducted. Headquarters Supply Management Surface Transportation
Portfolio is finalizing a Management Instruction (MI) to replace PO-530-88-
03. This MI will require the AO to develop and submit to the CO a route
survey plan. However, the Manager, Transportation Networks, must
approve the plan before the survey is conducted.

Full surveys for all routes on a contract may not be the most efficient
manner for the AO to obtain the needed information to assess
requirements. However, the CO needs adequate assurance that the AO
has assessed the contract requirements for appropriateness. Therefore,
during survey planning, the AO and the Manager, Operations Programs
Support, should consider whether full surveys on all routes would be the
best means of validating requirements.

Contract requirements were not consistently assessed because the CO did
not require the AOs to perform the necessary surveys or provide support for
requirements when contracts were considered for renewal. In addition,
AOs did not receive clear and consistent instruction on how to communicate
contract requirements, and the CO did not provide consistent training for
AOs. The new MI will require that the Manager, Transportation Networks,
provide training for the individuals designated to conduct surveys for
transportation routes.
2
  An AO is designated by a CO to supervise and administer a supplier’s performance of mail
transportation.
3
  AOs use the surveys to determine whether routes should be modified, continued, or eliminated.
4
  This manual was in effect during our fieldwork.


                                                 2
Renewal Process for Highway Transportation Contracts          CA-AR-08-008
 in the Southeast Area



As a result, the Postal Service had no assurance that all highway
transportation contract requirements were assessed properly to determine
whether routes should be added, streamlined, reduced, or eliminated. The
Postal Service had $935,000 of disbursements at risk because
requirements were not consistently assessed, as required. Click here to go
to Appendix B for our detailed analysis.

We recommend the Manager, Operations Support, Southeast Area, instruct
the District Managers, Southeast Area, to require the Managers,
Transportation Network, Southeast Area to:

1. Coordinate with administrative officials to develop route survey plans
   and ensure that surveys are conducted and sent to the contracting
   officer and included in the contract file when contract renewal is under
   consideration.

Management’s Comments

Management agreed with our finding and recommendation. Management
stated they will, upon the updated MI’s release, instruct AOs to develop
survey plans. Management did not agree with the amount of
disbursements at risk. Management stated they recognize and agree that if
full surveys are done on all routes, the Postal Service may realize some
cost savings on some routes. However, they maintained that in today’s
business environment a more cost-effective and acceptable method of
assessing needs is based on the recommendation of the AO.
Management’s comments, in their entirety, are included in Appendix D.

Evaluation of Management’s Comments

The OIG considers management's comments responsive to the
recommendation and the actions should resolve the issue identified in the
report. In regard to management’s disagreement with our disbursements at
risk amount, it is pertinent that the AO’s assessment of contract
requirements is adequate to validate the Postal Service’s operational
needs. If an AO requests renewal of a contract “as is” without a proper or
structured assessment, there is a risk that the contract requirements will not
be correct; thus we believe these disbursements are at risk. All 72 of the
contracts in our statistical sample included market comparisons and the
necessary support to assure adequate rate analysis. However, this does
not lead us to conclude that the contract requirements are adequate.

We recommend the Manager, Operations Support, Southeast Area, instruct
the District Managers, Southeast Area, to require the Managers,
Transportation Network, Southeast Area to:



                                           3
Renewal Process for Highway Transportation Contracts              CA-AR-08-008
 in the Southeast Area



2. Provide training to all administrative officials to reiterate their duties and
   to promote the use of the eBuy Service Change Request System to
   submit renewal forms.

Management’s Comments

Management agreed with our recommendation and stated they will begin
training AOs on July 29, 2008.

Evaluation of Management’s Comments

The OIG considers management's comments responsive to the
recommendation and the actions should resolve the issue identified in the
report.

Contractor Performance

Postal Service officials did not consistently consider contractor performance
during the renewal of contracts and did not include adequate
documentation in contract files to show that performance was considered.
The CO stated he assumes that contractor performance is adequate unless
he receives complaints from AOs. However, the 72 contract files reviewed
at the District Network Office (DNO) included no documentation to show
that contractor performance was considered. Only two AOs had conducted
surveys with documented comments on contractors’ performance, and the
CO did not maintain the survey forms in the contract files.

Management did not consistently consider contractor performance because
the CO did not require the AOs to submit the required reports on contractor
performance. Further, AOs and facility personnel did not properly
document contractors’ late trips. During fiscal year (FY) 2007, highway
transportation contractors in the Southeast Area made 148,980 trips that
were more than 30 minutes late, but only 22,018 (15 percent) of these trips
were documented with Postal Service (PS) Form 5500, Contract Route
Irregularity Report. If performance is not considered and documented in the
contract renewal files, the Postal Service could be at risk of selecting
contractors that perform poorly. Click here to go to Appendix B for our
detailed analysis.




                                           4
Renewal Process for Highway Transportation Contracts           CA-AR-08-008
 in the Southeast Area



Best Practices
We observed AOs in the Capital Metro Area using a checklist to ensure
requirements were reviewed before contract renewal. The checklist
included questions on equipment, schedule or route changes, and
contractor performance. AOs also certified the checklists with their
signatures. The CO at the Capital Metro DNO maintained a copy of the
AO’s signed checklist in the contract files.

We recommend the Manager, Operations Support, Southeast Area, direct
the District Managers, Southeast Area, to:

3. Instruct administrative officials to implement a checklist similar to that
   used in the Capital Metro Area to ensure requirements and contractors’
   performance have been appropriately considered, and submit the
   checklists to the contracting officer for retention in the contract file.

Management’s Comments

Management agreed with our recommendation and stated they will send a
notification for AOs to begin using the checklist for the 2009 renewal by
August 1, 2008.

Evaluation of Management’s Comments

The OIG considers management's comments responsive to the
recommendation and the actions should resolve the issue identified in the
report.

Comparative Market Analysis

The CO conducted a market comparison for the 72 contracts for renewal to
ensure competition and favorable rates were achieved. The CO also
maintained the necessary support to verify the rate analysis. All of the
contracts we reviewed included market comparisons and contained the
necessary support to assure adequate analysis of contract rates.

The OIG considers management’s comments responsive to the
recommendations in the report. The OIG considers all the
recommendations significant, and therefore requires OIG concurrence
before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. These recommendations should not be
closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.




                                           5
Renewal Process for Highway Transportation Contracts        CA-AR-08-008
 in the Southeast Area


We will report $935,000 in disbursements at risk in our Semiannual Report
to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you
have any questions or need additional information, please contact Judy
Leonhardt, Director, Supply Management or me at (703) 248-2100.


 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Terry Wilson
    Susan Brownell
    Dwight Young
    Karen Pompanella
    Royale Ledbetter
    David McClelland
    Bobby Mays
    Susan Witt
    Katherine S. Banks




                                           6
Renewal Process for Highway Transportation Contracts                               CA-AR-08-008
 in the Southeast Area


                    APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

HCRs5 provide for the transportation of mail between post offices or other
designated points where mail is received or dispatched. Regular highway
transportation contracts for HCRs provide service between postal facilities,
mailers’ plants, and similar facilities. These contracts are generally for
4-year terms and have an optional renewal provision. There is no limitation
on the number of years a contract can be renewed.

The COs at the nine area DNO6 and two DNO branch offices have sole
authority to award, amend, terminate, or otherwise alter the provisions of
highway transportation contracts. COs are also responsible for
monitoring supplier performance to ensure the suppliers provide all the
services and equipment required under the terms of the agreements. To
monitor suppler performances, the CO appoints an AO to record contract
performance on a day-to-day basis. The AO is generally the postmaster
or manager of the facility where the HCR originates.

A significant number of highway transportation contracts are renewed each
year. In FY 2007, 2,146 of the 8,184 (26 percent) regular highway
transportation contracts were renewed. These contract renewals were
valued at more than $308.5 million. The Southeast Area DNO contracts
represented 16 percent of the contracts renewed in FY 2007.

Postal Service Supply Management issued a report, Review of Contracting
Activity at the Southeast Area Distribution Networks Transportation
Contracts Office, on March 24, 2006. xxx xxxxxx xxxxxx xxxx xxxxxxxx
xxxxx xxxxxx x xxxx xx xxxxxxxxxxx xx xxxxxxxxxxx xxx xxxxxxxx
xxxxxxxxxxxxx xxx xx xxxxx xxxxxxxxxxxx. xx xxxxxxxx, xxxxxxxx xxxxx
xxx xxx xxxxxxx xxxxxxxxxxxxx xx xxxxxx xxxxxxx xxx xxxxxxxxxx
xxxxxxxxxxx xxx xxxxxx xxx xxxxxxxx. xxx xxxxxx xxxxxxxxxx xxxx
xxxxxxxxxxx xxx xxxxxxxxx xxxx xxx xxxxxx xxx xxxxxxxx xxxxxxxxx
xxxxxxxxxx xxxxxxxxx xxx xxxxxxxxxx xxxxxxx. xxxx xxxx xxxxxxxxxxx xxx
xxxxxxxxx xxxx xxx xxxxxxx xxxxxxxx xxxx xxxxxxxxxx xxx xxxxxxxx xxxx
xxxxx xx xxxxxx xxxx xxxxxxxx xxxxx xxxxxx x xxxxxxxxxx xxxxxx xxx
xxxxxxx xxx xxxxxxxxxx xxxxxxxxxxxxx.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether Postal Service officials ensured
best service and value in renewing highway transportation contracts.

5
  HCRs also include transportation routes, box delivery, collection service, and other mail services.
Box delivery routes are similar to rural delivery service and provide home or business delivery of
mail.
6
  Each DNO coordinates Postal Service transportation operations within a geographic area.


                                                   7
Renewal Process for Highway Transportation Contracts                            CA-AR-08-008
 in the Southeast Area


Specifically, we determined whether Postal Service officials assessed
contract requirements to determine their appropriateness; considered past
and present supplier performance; and conducted market comparisons to
ensure competition and favorable rates were achieved.

To accomplish our audit objective, we sampled7 highway transportation
contracts renewed in FY 2007 within the Southeast Area. We interviewed
officials and reviewed contract files at the Southeast Area DNO. In
addition, we interviewed the CO and AOs assigned to the contracts in our
sample.

We conducted this performance audit from February through July 2008 in
accordance with generally accepted government auditing standards and
included such tests of internal controls as we considered necessary under
the circumstances. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

Headquarters Supply Management Surface Transportation Portfolio
personnel provided us with a list of highway transportation contracts that
were current as of September 30, 2007. To support our reliance on the
data, we performed a limited review of data integrity by reconciling the
contract files reviewed to our sample taken from the list. We discussed our
observations and conclusions with management officials on May 14, 2008,
and included their comments where appropriate.




7
  The samples included 70 files valued at $10,802,534, which were statistically selected from a
universe of 150 contracts valued at $24,003,588, and two files valued at $3,154,500, which were
judgmentally selected.


                                                 8
Renewal Process for Highway Transportation Contracts                CA-AR-08-008
 in the Southeast Area


PRIOR AUDIT COVERAGE

We identified two OIG reports issued within the past 5 years related to this
subject matter within the Southeast Area.

                                      Final
                     Report          Report      Monetary
 Report Title       Number            Date        Impact               Report Results
Highway           TD-AR-03-        9/26/2003       $11.3     •   The Postal Service could save
Network           014                              million       $11.3 million by canceling
Scheduling –                                                     101 unnecessary trips over a 1-
Southeast Area                                                   to 3-year period. The trips could
                                                                 be terminated because mail
                                                                 volume was low, and mail could
                                                                 be consolidated on other trips
                                                                 without negatively affecting
                                                                 service.
                                                             •   Management concurred with the
                                                                 intent of the findings and
                                                                 recommendations.
Surface           NL-AR-05-        3/18/2005        $6.6     •   The Postal Service could save
Transportation    005                              million       $6.6 million over the term of
– Bulk Mail                                                      existing Southeast Area bulk
Center                                                           mail highway contracts by
Highway                                                          canceling, not renewing, or
Transportation                                                   modifying 52 trips. The trips
Routes –                                                         could be eliminated or modified
Southeast Area                                                   without negatively affecting
                                                                 service. The audit disclosed
                                                                 that mail volume was low and
                                                                 mail could be consolidated on
                                                                 other trips.
                                                             •   Management agreed with the
                                                                 findings and recommendations.




                                           9
Renewal Process for Highway Transportation Contracts         CA-AR-08-008
 in the Southeast Area


                     APPENDIX B: DETAILED ANALYSIS

Assessment of Requirements

Postal Service officials did not consistently assess whether contract
requirements were appropriate. For 49 (68 percent) of the 72 contracts we
reviewed, AOs did not perform the required survey and did not maintain
evidence to show that they had assessed requirements. In addition, only
one of the 23 surveys was documented in the CO’s file.

PO-501 requires that surveys be performed on all trips of each HCR in the
fall of the year before the HCR expires. COs are required to remind AOs
each year of the routes to be surveyed. These surveys are used to assist
the COs in determining whether an HCR should be renewed.

PO-530-88-03 states that the AO must develop and submit to the CO a
route survey plan and the CO must approve the plan prior to the survey
being conducted. Headquarters Supply Management Surface
Transportation Portfolio is finalizing a MI to replace PO-530-88-03. This MI
would require the AO to develop and submit to the CO a route survey plan.
However, the Manager, Transportation Networks, must approve the plan
before the survey is conducted.

Full surveys for all routes on a contract may not be the most efficient
manner for AOs to obtain the needed information for assessing
requirements. However, the CO needs adequate assurance that the AO
has assessed the contract requirements for appropriateness. Therefore,
during survey planning, the AO and the Manager, Operations Programs
Support, should consider whether full surveys on all routes would be the
best means of validating the requirements.

Contract requirements were not consistently assessed because the CO did
not require AOs to perform the necessary surveys or provide other support
for assessing requirements when contracts were considered for renewal. In
addition, AOs did not receive clear and consistent instruction on how to
communicate contract requirements to the Southeast Area Office. The CO
advised most AOs to conduct surveys only if the CO or supplier requested
them or if a change in service occurred.

Further, the CO did not provide consistent training for AOs, and the AO
Handbook for the Southeast Area had not been updated since 1999. The
CO’s staff stated that they would update the handbook based on the newly
released MI, from Headquarters Supply Management Surface
Transportation Portfolio. Some AOs stated their most recent training was
several years ago. The CO stated that his staff provided training when an
office or a facility made a request, and there was no prescribed schedule for



                                          10
Renewal Process for Highway Transportation Contracts                               CA-AR-08-008
 in the Southeast Area


training. The new MI will require that the Manager, Transportation
Networks, provide training for employees designated to conduct surveys for
all transportation routes.

In addition, the AOs did not fully utilize the eBuy Service Change Request
(SCR) system to submit renewal surveys. The SCR system automates the
process of requesting service changes in an HCR and can generate annual
surveys. However, AOs did not consistently use the SCR system to
complete and send surveys to the CO. Instead, some AOs emailed the CO,
stating that the contract was to be renewed as is (with no changes).
Surveys must be completed whether the contract is renewed as is or with
changes made using the SCR system so that contract requirements are
adequately assessed at the appropriate intervals.

As a result, the Postal Service had no assurance that all highway
transportation contract requirements were assessed properly to determine
whether routes should be added, streamlined, reduced, or eliminated. The
Postal Service had $935,000 of disbursements at risk because support
requirements were not consistently assessed, as required. If the control
weaknesses continue, funds may be at risk in the future. See Appendix C
for our calculation of disbursements at risk.

Contractor Performance

Postal Service officials did not consistently consider contractor performance
during the renewal of contracts and did not adequately document
performance consideration in the contracting files. Only two AOs had
conducted surveys with documented comments on contractors’
performance, and the CO did not maintain the survey forms in the contract
files.

The CO stated he assumed that contractor performance was adequate
unless he received complaints from AOs. During our review of the contract
files, we found no written evidence of disciplinary action against a
contractor or support for acceptable performance by a contractor.

The SCR system provides AOs with instructions for renewing HCRs.
Specifically, the AO should complete PS Form HC113, Postmaster
Evaluation of Supplier, along with the survey. AOs should use PS Form
HC113 to evaluate and document the supplier’s performance on the route.
The evaluation should also include any PS Forms 55008 on file and notes of
discussions with the contractor.

Further, AOs and facility personnel did not properly document contractors’
late trips. During FY 2007, highway transportation contractors in the

8
    PS Form 5500, Contract Route Irregularity Report, is used to record contractors’ performance.


                                                   11
Renewal Process for Highway Transportation Contracts                         CA-AR-08-008
 in the Southeast Area


Southeast Area made 148,980 trips that were more than 30 minutes late,
but only 22,018 of these trips were documented with PS Form 5500.

The CO should also receive an efficiency report on each contractor at the
end of each accounting period, and should request other performance
reports as necessary from the AO.9 However, the CO did not solicit any
reports from AOs to use in assessing contractor performance. It is
essential for the CO to consider the contractor’s performance during the
renewal of a contract and document it in the contract file. If performance is
not considered and documented in the contract renewal files, the Postal
Service could be at risk of selecting contractors that perform poorly.

Best Practices
We observed AOs in the Capital Metro Area using a checklist to ensure that
requirements were reviewed before contract renewal. The checklist
included questions on equipment, schedule or route changes, and
contractor performance. AOs also certified the checklists with their
signatures. The CO at the Capital Metro Distribution Network Office
maintained a copy of the AO’s signed checklist in the contract files.

Comparative Market Analysis

The CO conducted a comparative market analysis for the 72 contracts for
renewal to ensure that competition and favorable rates were achieved. The
CO also maintained the necessary support to verify the rate analysis.




9
 Administrative Official Handbook for the Southeast Area, Section 11, HCR Performance Tracking
System.


                                               12
Renewal Process for Highway Transportation Contracts                          CA-AR-08-008
 in the Southeast Area


      APPENDIX C: CALCULATION OF DISBURSEMENTS AT RISK

We performed a simple random sample of 70 contracts from a universe of
150 contracts, valued at $24 million. AOs for 49 of the 70 contracts
reviewed did not conduct surveys to assess contract requirements and
performance. The point estimate of the value of the noncompliant contracts
for the sample universe is $15.6 million, at a 95 percent confidence level;
this value is in the interval between $11.1 and $20 million. In addition, the
audit team identified two other contracts, not included in the sample
universe, with no surveys on file. These contracts have a total value of
$3.15 million. Therefore, the total estimated value of contracts without
surveys on file is $18.7 million.

Based on previous OIG audits, 5 percent10 of highway transportation routes
in the Southeast Area could have been eliminated or consolidated if AOs
had adequately assessed requirements. We conservatively calculated the
value of disbursements at risk for this audit at $935,000 – 5 percent of
$18.7 million – which we will report in our Semiannual Report to Congress.

                      Table 1. Contract Samples and Values

                                    Number of Number of
                                    Contracts Contracts in                 Universe
                                     Sampled   Universe                     Value
      Statistical Sample                   70         150                 $24,003,588
      Judgmental Sample                     2            2                  3,154,500
                Total                          72                152      $27,158,088


                  Table 2. Contracts with No Renewal Survey

                                 Number of
                                 Contracts                Value of   Disbursements
                               Without Survey            Contracts       at Risk
Statistical Sample                         47             $7,267,723    $15,600,000
Judgmental Sample                           2              3,154,500       3,154,500
          Total                            49            $10,422,223    $18,754,500
 Total Disbursements at Risk with 5 Percent Applied                                  $935,000



10
   We calculated the 5 percent based on the number of routes the OIG recommended for elimination
in two prior audit reports: (1) Bulk Mail Center Highway Transportation Routes - Southeast Area
(Report Number NL-AR-05-005, dated March 18, 2005), and (2) Highway Network Scheduling -
Southeast Area (Report Number TD-AR-03-014, dated September 26, 2003). (See Prior Audit
Coverage.)


                                               13
Renewal Process for Highway Transportation Contracts   CA-AR-08-008
 in the Southeast Area


                APPENDIX D: MANAGEMENT’S COMMENTS




                                          14
Renewal Process for Highway Transportation Contracts   CA-AR-08-008
 in the Southeast Area




                                          15
